App. 1
TEXAS COURT OF APPEALS,
THIRD DISTRICT, AT AUSTIN
==========================
NO. 03-18-00050-CR
==========================
The State of Texas, Appellant
v.
Matthew Freeman, Appellee
========================================================
FROM THE DISTRICT COURT OF TOM GREEN
COUNTY, 391ST JUDICIAL DISTRICT
NO. D-15-0520-SA, THE HONORABLE
MARTIN (BROCK) JONES, JUDGE PRESIDING
========================================================
MEMORANDUM OPINION
After this Court reversed Matthew Freeman’s
judgment of conviction for family violence assault by
impeding the normal breathing or circulation of the
blood and remanded the case for further proceedings,
see Freeman v. State, 525 S.W.3d 755 (Tex. App.—Austin 2017, pet. ref ’d), Freeman filed a pretrial application for writ of habeas corpus asserting that the double
jeopardy clauses of the United States Constitution and
the Texas Constitution barred retrial. The trial court
granted habeas relief, ordered Freeman acquitted, and
ordered his immediate release from custody. The State
appeals the trial court’s order granting habeas relief.
For the reasons set out below, we reverse the trial
court’s order.

App. 2
BACKGROUND
Freeman was charged by indictment with family
violence assault by impeding the normal breathing or
circulation of the blood, a third degree felony. See Tex.
Penal Code § 22.01(a)(1), (b)(2)(B). The indictment also
contained an enhancement paragraph alleging a prior
felony conviction for felony DWI, which enhanced the
punishment range to that of a second degree. See id.
§ 12.42(a). Freeman waived a jury and proceeded with
a trial before the court. He pled guilty to the lesserincluded offense of family violence assault causing bodily injury, a Class A misdemeanor, see id. § 22.01(a),
and pled true to the allegation in the enhancement
paragraph. At the conclusion of the bench trial, the
trial court found Freeman guilty of the greater offense
of family violence assault by impeding the normal
breathing or circulation of the blood as alleged in the
indictment and assessed his punishment at 15 years’
imprisonment.
Freeman appealed his conviction to this Court. In
a single point of error, he asserted that the trial court
violated his constitutional rights by finding him guilty
by the clearer weight and degree of credible testimony
rather than by beyond a reasonable doubt.1 This Court
concluded that Freeman “met his burden of showing
1

In finding appellant guilty of the charged offense, the trial
judge said,
The Court finds by the clearer greater weight and degree of credible testimony that the Defendant is guilty
of the offense of assault by impeding the breath or circulation, as alleged in Paragraph 1 of the indictment.

App. 3
that the trial court applied the incorrect standard” regarding the State’s burden of proof and further concluded that the error of applying the incorrect
standard was structural error not subject to a harm
analysis. Freeman, 525 S.W.3d at 758–59. We reversed
the trial court’s judgment of conviction and “remanded
for further proceedings consistent with [the Court’s]
opinion.” Id. at 759.
After remand, Freeman filed a pretrial application
for writ of habeas corpus, asserting that he was entitled to a judgment of acquittal because he “ha[d] been
tried by the court and the court failed to find [him]
guilty beyond a reasonable doubt.”2 Freeman maintained that because his trial ended without the judge
finding him guilty beyond a reasonable doubt, he had
been “functionally acquitted” of the offense. He argued,
therefore, that, given his prior acquittal, double jeopardy protections barred retrial.
The trial court conducted a hearing on the application at which a copy of this Court’s opinion and
2

Freeman filed his first habeas application after the Court
of Criminal Appeals refused the State’s petition for discretionary
review of this Court’s opinion but before this Court’s mandate issued on November 7, 2017. The trial court conducted a hearing on
the application, after which the court denied the application and
reinstated Freeman’s bond. After the issuance of the mandate
from this Court, Freeman filed a subsequent habeas application
on January 4, 2018. Also on January 4, 2018, several hours later,
Freeman filed yet another application, which added a special plea
of double jeopardy pursuant to article 27.05 of the Code of Criminal Procedure. The trial court’s order granting this last application is the subject of this appeal.

App. 4
mandate were admitted. Freeman argued that this
Court’s opinion, “while [it] didn’t directly say it’s an acquittal,” recognized that the trial court failed to make
a finding of guilt beyond a reasonable doubt. He further argued, as he did in his habeas application, that
this failure constituted a “functional acquittal.” At the
conclusion of the hearing, the trial court orally granted
Freeman’s application for writ of habeas corpus and,
“[i]n accordance with the opinion of the Court of Appeals and the mandate issued by that Court directing
this Court to enter a judgment consistent with its opinion,” “enter[ed] a judgment of acquittal.”3 The trial
court’s subsequent written order “grant[ed] the relief
requested” and ordered that “the defendant is hereby
acquitted of the Offense alleged in the indictment.”
The State appeals the trial court’s order, see Tex.
Code Crim. Proc. art. 44.01(a)(1) (providing that State
may appeal from order dismissing indictment), (a)(4)
(providing that State may appeal from order sustaining claim of former jeopardy), arguing that the trial
court’s grant of habeas relief and entry of a judgment
of acquittal was an abuse of discretion.
STANDARD OF REVIEW
In reviewing a trial court’s decision on a pretrial
application for writ of habeas corpus, we review the
3

We note that, in our opinion, this Court did not direct the
trial court to “enter a judgment” consistent with our opinion. Rather, we remanded the case “for further proceedings” consistent
with our opinion.

App. 5
facts in the light most favorable to the trial court’s ruling and, absent an abuse of discretion, uphold the ruling. Ex parte Wheeler, 203 S.W.3d 317, 324 (Tex. Crim.
App. 2006); Ex parte Ali, 368 S.W.3d 827, 830 (Tex.
App.—Austin 2012, pet. ref ’d). An abuse of discretion
does not occur unless the trial court acts “arbitrarily or
unreasonably” or “without reference to any guiding
rules and principles,” State v. Hill, 499 S.W.3d 853, 865
(Tex. Crim. App. 2016) (quoting Montgomery v. State,
810 S.W.2d 372, 380 (Tex. Crim. App. 1990)), or unless
the trial court’s decision “falls outside the zone of reasonable disagreement,” Johnson v. State, 490 S.W.3d
895, 908 (Tex. Crim. App. 2016). In our review, we defer
to the trial court’s implied factual findings that are
supported by the record. See Wheeler, 203 S.W.3d at
325–26.
DISCUSSION
The issue before the trial court at the habeas hearing was whether Freeman had been acquitted by the
trial judge and, thus, retrial for the charged offense is
barred by double jeopardy.
The Double Jeopardy Clause of the Fifth Amendment, made applicable to the states through the Due
Process Clause of the Fourteenth Amendment, Benton
v. Maryland, 395 U.S. 784, 787 (1969), protects a defendant against being placed twice in jeopardy for the
same offense. U.S. Const. amend. V, cl. 2 (“nor shall any
person be subject for the same offence to be twice put
in jeopardy of life or limb”). The clause embodies three

App. 6
separate guarantees—protection against prosecution
for the same offense following an acquittal, protection
against prosecution for the same offense following a
conviction, and protection against multiple punishments for the same offense. Illinois v. Vitale, 447 U.S.
410, 415 (1980); Brown v. Ohio, 432 U.S. 161, 164–65
(1977); Ex parte Marascio, 471 S.W.3d 832, 847 (Tex.
Crim. App. 2015); Ex Parte Denton, 399 S.W.3d 540, 545
(Tex. Crim. App. 2013). The Texas Constitution provides substantially identical protections. See Tex.
Const. art. I, § 14 (“No person, for the same offense,
shall be twice put in jeopardy of life or liberty; nor shall
a person be again put upon trial for the same offense,
after a verdict of not guilty in a court of competent jurisdiction.”); see also State v. Blackshere, 344 S.W.3d
400, 406 n.8 (Tex. Crim. App. 2011); Ex parte Mitchell,
977 S.W.2d 575, 580 (Tex. Crim. App. 1997). The double
jeopardy claim that Freeman asserted in his habeas
application invokes the prohibition against a second
trial after being acquitted.
“One of the most fundamental rules of double jeopardy jurisprudence is that when a trial ends in an acquittal, the defendant may not be tried again for the
same offense.” Blackshere, 344 S.W.3d at 406. “For purposes of double jeopardy, an acquittal occurs in the
trial court only when the ruling of the trial court, whatever its label, actually represents a resolution in the
defendant’s favor, correct or not, of some or all of the
factual elements of the offense charged.” Benavidez v.
State, 323 S.W.3d 179, 181 (Tex. Crim. App. 2010); accord State v. Moreno, 294 S.W.3d 594, 598 (Tex. Crim.

App. 7
App. 2009); State v. Stanley, 201 S.W.3d 754, 760 (Tex.
Crim. App. 2006). The Court of Criminal Appeals has
observed that while no statutory provision explicitly
defines the word “acquittal,” “the context in which it
appears throughout the Code of Criminal Procedure
creates a powerful inference that it means a finding of
fact that the accused is not guilty of the criminal offense with which he is charged.” Ex parte George, 913
S.W.2d 523, 527 (Tex. Crim. App. 1995); see Evans v.
Michigan, 568 U.S. 313, 318–19 (2013) (“[O]ur cases
have defined an acquittal to encompass any ruling that
the prosecution’s proof is insufficient to establish criminal liability for an offense.”).
The trial judge’s verdict in this case does not satisfy the above consistently used definition of acquittal.
First, the trial judge’s verdict represented a resolution
of the factual elements of the charged offense against
Freeman, not in his favor. Further, the judge’s recitations did not reflect a fact finding that Freeman was
not guilty. The trial judge plainly stated that he found
Freeman guilty of the charged offense. At no point did
the judge suggest that Freeman had been found not
guilty or that the evidence did not support a guilty verdict. The trial judge’s verdict was not an acquittal.
Further, contrary to Freeman’s claim, the judge’s
failure to find Freeman guilty beyond a reasonable
doubt was not a “functional acquittal.” The term “functional acquittal” has been used by the Court of Criminal Appeals to characterize a trial court’s ruling
setting aside a determination of guilt based on the
court’s subsequent finding of insufficient evidence. See,

App. 8
e.g., State v. Savage, 933 S.W.2d 497, 499 (Tex. Crim.
App. 1996) (concluding that “a trial court’s JNOV ruling after a jury determination of criminal guilt accomplishes exactly the same effect as granting the
defendant a new trial for insufficient evidence—a functional acquittal”). This characterization suggests that
a “functional acquittal” would have happened here if
the trial judge had revisited his guilty verdict at some
later point, determined that the evidence was insufficient to prove Freeman’s guilt beyond a reasonable
doubt, and made a finding based on that determination. Or, perhaps, if the trial judge’s recitation had indicated that he found that the evidence did not prove
one or more of the elements of the charged offense beyond a reasonable doubt. However, the trial judge here
made no finding with respect to whether Freeman was
guilty beyond a reasonable doubt because he applied
the wrong standard.
In support of his claim, Freeman cites to this
Court’s opinion reversing his conviction. Our opinion,
however, addressed the process by which the trial
judge arrived at his verdict.4 We do not agree with
Freeman’s suggestion that error in that process constitutes a functional acquittal. Moreover, Freeman misconstrues our opinion. In our opinion, we concluded
that “[b]y applying the incorrect standard, the trial
4

At no point in the appeal of his conviction did Freeman argue, contend, or suggest that the trial judge’s verdict was a “functional acquittal.” His sole complaint was about the erroneous
standard applied by the trial judge—that is, the error in the process that the judge employed to arrive at his verdict.

App. 9
court denied Freeman his right to be convicted based
on proof beyond a reasonable doubt.” Freeman, 525
S.W.3d at 759. Freeman appears to interpret that conclusion as indicating that we concluded that the trial
court convicted Freeman on less than proof beyond a
reasonable doubt and, therefore, functionally acquitted
him. That is not what we said; that is not what we
meant. We concluded that, due to error in the process
of arriving at the verdict (the application of an incorrect standard of proof ), Freeman was denied the right
to be convicted based on proof beyond a reasonable
doubt. The remedy for the denial of that right, then, is
to provide a new trial in which the verdict is not the
result of an erred process—that is, a trial in which the
correct standard of proof is applied when determining
the verdict.5 For that reason, we remanded the case for
further proceedings.
In this case, there is little doubt from the record
that the trial judge did not intend to acquit Freeman.
The trial judge terminated the prosecution based on
his finding that Freeman was guilty of the charged
5

We note that error in the jury charge—even relating to the
burden of proof—results in reversal of the judgment of conviction
and remand for a new trial, not an acquittal. See Sullivan v. Louisiana, 508 U.S. 275, 281–82 (1993) (concluding that jury-charge
error that misdefined State’s burden of proof as being less than
beyond reasonable doubt constitutes structural error and remanding case for further proceedings); Reyes v. State, 938 S.W.2d
718, 721 (Tex. Crim. App. 1996), overruled by Paulson v. State, 28
S.W.3d 570 (Tex. Crim. App. 2000) (concluding that total omission
of reasonable-doubt instruction then required by Geesa was error
that was not subject to harmless error, reversing judgment of conviction, and remanding for new trial).

App. 10
offense; he did not terminate the prosecution based on
a finding that Freeman was not guilty or on a finding
that the State’s evidence was lacking or insufficient to
convict Freeman.6 Nothing in the trial judge’s recitation implied that he had made a fording that Freeman
was not guilty of committing the charged offense or
that the evidence was insufficient. Rather, the recitation reflects that the judge applied the wrong standard
in making the finding of guilt that he did.
Because Freeman was not acquitted or “functionally acquitted,” the double-jeopardy protection against
a second trial after an acquittal does not bar Freeman’s
retrial for the charged offense. See Lockhart v. Nelson,
488 U.S. 33, 38 (1988) (“It has long been settled, however, that the Double Jeopardy Clause’s general prohibition against successive prosecutions does not
prevent the government from retrying a defendant
who succeeds in getting his first conviction set aside,
through direct appeal or collateral attack, because of
some error in the proceedings leading to conviction.”);
accord Ex parte Davis, 957 S.W.2d 9, 12 (Tex. Crim.
App. 1997) (observing that, generally, double jeopardy
does not bar retrial after reversal but noting exception
6

We observe that Freeman filed a motion for new trial, asserting that “[t]he verdict in this cause is contrary to the law and
the evidence,” and the trial court denied the motion. An allegation
that a verdict is against the law and the evidence raises an evidentiary sufficiency challenge. State v. Zalman, 400 S.W.3d 590,
594 (Tex. Crim. App. 2013) (citing Bogan v. State, 180 S.W. 247,
248 (Tex. Crim. App. 1915)). Thus, in denying the motion, the trial
court rejected the contention that the evidence was insufficient to
support Freeman’s conviction.

App. 11
when conviction reversed for legally insufficient evidence). Consequently, we hold that the trial court
abused its discretion in concluding otherwise.
CONCLUSION
Because Freeman’s trial did not end with an acquittal and the trial judge’s verdict was not a “functional acquittal,” retrial for the charged offense
following this Court’s reversal of Freeman’s conviction
does not violate double jeopardy. Thus, the trial court
abused its discretion in granting Freeman’s application for writ of habeas corpus and entering a judgment
of acquittal. We reverse the trial court’s order granting
habeas relief and ordering Freeman acquitted.
_______________________________
Melissa Goodwin, Justice
Before Justices Puryear, Goodwin, and Bourland
Reversed
Filed: November 14, 2018
Do Not Publish

App. 12
REPORTER’S RECORD
TRIAL COURT CAUSE NO. D-15-0520-SA
VOLUME 5 OF 6 VOLUMES
THE STATE OF TEXAS

)
)
)
)
)
)
)

VS.
MATTHEW FREEMAN

IN THE DISTRICT
COURT
391ST JUDICIAL
DISTRICT
TOM GREEN
COUNTY, TEXAS

––––––––––––––––––––––––––––––
DEFENDANT’S APPLICATION
FOR WRIT OF HABEAS CORPUS
AND
SPECIAL PLEA OF DOUBLE JEAPORDY [sic]
––––––––––––––––––––––––––––––
On the 10th day of January, 2018, the following
proceedings came on to be heard in the above entitled
and numbered cause, before the Honorable Brock
Jones, Judge presiding, held in San Angelo, Tom Green
County, Texas.
The proceedings were reported by stenographic
method.
COPY
*

*

*

[13] THE COURT: Record will reflect the
Application for Writ of Habeas Corpus is granted.

App. 13
In accordance with the opinion of the Court of Appeals and the mandate issued by that Court [14] directing this Court to enter a judgment consistent with
its opinion, it will be the judgment of the Court the relief prayed for in the writ application will be granted.
The Court enters a judgment of acquittal. Get that
to me.
MR. BUTLER:
THE COURT:

Thank you, Your Honor.
Thank you.

MR. BUTLER: Your Honor, with that, can
my client go ahead and be released today?
THE COURT:
perwork.

You’ve got to get me some pa-

MR. BUTLER: Certainly. Do you want me to
prepare you an Order of Acquittal?
THE COURT:

Yes, sir.

MR. BUTLER: Okay. I will get that to you today.
(Hearing concluded.)
*

*

*

App. 14
NO. D-15-0520-SA
STATE OF TEXAS

§
§
vs.
§
MATTHEW FREEMAN §
§
§
§

IN THE DISTRICT
COURT
391st JUDICIAL
DISTRICT
TOM GREEN COUNTY,
TEXAS

ORDER ON SECOND AMENDED BRIEF AND
APPLICATION FOR WRIT OF HABEAS CORPUS
SEEKING JUDGMENT OF ACQUITTAL AND
IMMEDIATE RELEASE OF DEFENDANT AND
SPECIAL PLEA OF DOUBLE JEOPARDY
The Court having considered Movant’s Second
Amended Brief and Application for Writ of Habeas
Corpus Seeking Judgement of Acquittal and Immediate Release of Defendant and Special Plea of Double
Jeopardy, and heard arguments of counsel does hereby
grant the relief requested and ORDERS THE DEFENDANT IS HEREBY ACQUITTED of the Offense alleged in the indictment, and is ordered
immediately released from custody in this matter.
1 – 10 – 18
Date
/s/ Brock Jones
Judge Presiding

App. 15
TEXAS COURT OF APPEALS,
THIRD DISTRICT, AT AUSTIN
=========================================
ON MOTION FOR REHEARING
=========================================
==========================
NO. 03-16-00130-CR
==========================
Matthew Freeman, Appellant
v.
The State of Texas, Appellee
========================================================
FROM THE DISTRICT COURT OF TOM GREEN
COUNTY, 391ST JUDICIAL DISTRICT
NO. D-15-0520-SA, THE HONORABLE
THOMAS J. GOSSETT, JUDGE PRESIDING
========================================================
OPINION
We withdraw our opinion and judgment issued on
March 22, 2017, and substitute the following opinion
and judgment in their place. We overrule the State’s
motion for rehearing. Appellant Matthew Freeman
was charged by indictment with assault on a family
member by impeding the normal breathing or circulation of the blood, a third-degree felony. See Tex. Penal
Code § 22.01(b)(2)(B). The indictment also alleged a
prior felony conviction, enhancing the offense to a
second-degree felony. See id. § 12.42(a). Freeman

App. 16
pleaded not guilty to the charged offense but pleaded
guilty to the lesser-included offense of assault on a
family member with bodily injury and pleaded true to
the enhancement paragraph. Following a bench trial,
the trial court signed a judgment convicting Freeman
and sentencing him to 15 years’ imprisonment. In one
appellate issue, Freeman contends that the trial court
violated his constitutional rights by convicting and
sentencing him without finding him guilty beyond a
reasonable doubt. We agree, and we will reverse his
conviction and remand the case for further proceedings.
“The Due Process Clause of the Fourteenth
Amendment ‘protects the accused against conviction
except upon proof beyond a reasonable doubt of every
fact necessary to constitute the crime with which he is
charged.’ ” Miles v. State, 357 S.W.3d 629, 631 (Tex.
Crim. App. 2011) (quoting In re Winship, 397 U.S. 358,
364 (1970)); see Sullivan v. Louisiana, 508 U.S. 275, 278
(1993) (“This beyond-a-reasonable-doubt requirement,
which was adhered to by virtually all common-law jurisdictions, applies in state as well as federal proceedings.”); Tex. Penal Code § 2.01 (“All persons are
presumed to be innocent and no person may be convicted of an offense unless each element of the offense
is proved beyond a reasonable doubt.”). This requirement is “basic in our law and rightly one of the boasts
of a free society.” In re Winship, 397 U.S. at 362 (quoting Leland v. Oregon, 343 U.S. 790, 803 (1952) (Frankfurther, J., dissenting)). “The reasonable-doubt standard plays a vital role in the American scheme of

App. 17
criminal procedure. . . . The standard provides concrete substance for the presumption of innocence—
that bedrock axiomatic and elementary principle
whose enforcement lies at the foundation of the administration of our criminal law.” Id. at 363 (internal quotation marks omitted). We will presume that a trial
court applied the reasonable-doubt standard unless
the defendant rebuts that presumption. See In re D.E.
W. 654 S.W.2d 33, 36 (Tex. App.—Fort Worth 1983, writ
ref ’d n.r.e.) (“The trial court, sitting without a jury, is
presumed to have used the correct standard of proof
absent a showing to the contrary. The burden is on appellant to show that the proper standard was not applied.”); see also Ex parte Jackson, 911 S.W.2d 230, 234
(Tex. App.—Houston [14th Dist.] 1995, no writ) (same).
In this case, Freeman has rebutted the presumption that the trial court applied the correct standard.
Freeman points out that, at the conclusion of the guiltor-innocence phase of the bench trial, the trial court
stated:
The Court finds by the clearer greater weight
and degree of credible testimony that the Defendant is guilty of the offense of assault by
impeding the breath or circulation, as alleged
in Paragraph 1 of the indictment.
This statement indicates that the trial court did not
apply the correct standard. Instead of finding Freeman
guilty “beyond a reasonable doubt,” the trial court purported to find him guilty “by the clearer greater weight
and degree of credible testimony.” We cannot assume
in light of this express statement by the trial court that

App. 18
it used a different standard in finding Freeman guilty
than the one that it articulated. Therefore, Freeman
has met his burden of showing that the trial court applied the incorrect standard.1
In its appellate brief, the State suggests that, even
if the trial court committed constitutional error by applying the incorrect standard, we should perform a
harm analysis pursuant to Rule 44.2(a). See Tex. R.
App. P. 44.2(a) (providing that court of appeals must
reverse judgment of conviction for constitutional error
“unless the court determines beyond a reasonable
doubt that the error did not contribute to the conviction or punishment”). However, if the trial court’s failure to find Freeman guilty beyond a reasonable doubt
was “structural error,” we must reverse his conviction
without performing a harm analysis. See Schmutz v.
State, 440 S.W.3d 29, 35 (Tex. Crim. App. 2014) (“A
‘structural’ error ‘affect[s] the framework within which
the trial proceeds, rather than simply an error in the
1

In its appellate brief, the State argues that a later statement of the trial court shows that the court actually applied the
correct reasonable-doubt standard. At the conclusion of the punishment phase of the bench trial, the court stated, “Matthew Freeman, the Court having found you guilty of the offense of 3rd
Degree Felony assault on a person with whom you had a dating
relationship, as alleged in the indictment, by impeding the breath
or circulation, the Court does also find beyond a reasonable doubt
that Paragraph 2 [the enhancement paragraph] is true.” We conclude that this later statement does not indicate that the court
found Freeman guilty beyond a reasonable doubt. Instead, it
merely indicates that, in addition to finding Freeman guilty, it
also found beyond a reasonable doubt that the enhancement paragraph was true.

App. 19
trial process itself,’ and is not amenable to a harm
analysis.”) (quoting Jordan v. State, 256 S.W.3d 286,
290 (Tex. Crim. App. 2008)); see also Arizona v. Fulminante, 499 U.S. 279, 309 (1991) (“These are structural defects in the constitution of the trial
mechanism, which defy analysis by ‘harmless-error’
standards.”). “All structural errors must be founded on
a violation of a federal constitutional right, but not all
violations of federal constitutional rights amount to
structural errors.” Schmutz, 440 S.W.3d at 35.
The United States Supreme Court has held that
“a constitutionally deficient reasonable-doubt [jury] instruction” is structural error. Sullivan, 508 U.S. at 276.
The Court explained that “[d]enial of the right to a jury
verdict of guilt beyond a reasonable doubt” is an error
not subject to a harm analysis because it violates a
“basic protectio[n] whose precise effects are unmeasurable, but without which a criminal trial cannot reliably
serve its function.” Id. at 281 (internal quotation
marks omitted; brackets in original). We conclude that
a similar structural error occurs when a trial judge
fails to find a defendant guilty beyond a reasonable
doubt in a bench trial. Requiring a harmless-error
analysis under these circumstances would result in a
situation in which, as Justice Scalia wrote for the
Court in Sullivan, a “reviewing court can only engage
in pure speculation—its view of what a reasonable jury
would have done. And when it does that, the wrong entity judge[s] the defendant guilty.” Id. (internal quotation marks omitted; brackets in original).

App. 20
By applying the incorrect standard, the trial court
denied Freeman his right to a conviction based on
proof beyond a reasonable doubt. Therefore, we must
reverse Freeman’s conviction without performing a
harm analysis and remand to the trial court.2 See id.
at 282 (concluding that structural error had occurred,
declining to perform harm analysis, and stating that
“the case is remanded for proceedings not inconsistent
2

While neither party addressed error preservation in its appellate briefing, the State has argued in a motion for rehearing
that Freeman failed to preserve his issue. See Darcy v. State, 488
S.W.3d 325, 327–28 (Tex. Crim. App. 2016). Although Freeman
did not object to the trial court’s application of the incorrect burden of proof, we conclude that proof beyond reasonable doubt in a
bench trial is a “systemic requirement” or “fundamental error.”
See Fears v. State, 479 S.W.3d 315, 339 (Tex. App.—Corpus
Christi 2015, pet. ref ’d) (“[B]y arguing the State shifted the burden of proof, appellant’s argument could be interpreted as going
to the absolute, systemic requirement that a person may only be
found guilty of an offense if a rational trier of fact finds sufficient
evidence to prove all of the elements of the offense beyond a reasonable doubt”); Huff v. State, No. 07-10-00174-CR, 2010 WL
4828491, at *3 (Tex. App.—Amarillo Nov. 29, 2010, no pet.) (mem.
op., not designated for publication) (“[I]t could be said that appellant’s contentions go to the absolute systemic requirement that a
defendant be convicted only on proof beyond a reasonable doubt”);
Perez v. State, No. 2-07-374-CR, 2009 WL 161029, at *6 (Tex.
App.—Fort Worth Jan. 22, 2009, no pet.) (mem. op., not designated for publication) (“Constitutional error that is ‘structural’
and therefore not subject to a harm analysis also seems to fall into
this category [of errors that require no preservation]. The very
limited class of structural, constitutional errors includes . . . an
instruction that erroneously lowers the burden of proof for conviction below the ‘beyond a reasonable doubt’ standard.”) (citation
omitted). Therefore, we have considered Freeman’s complaint despite the fact that his trial counsel did not object to the trial
court’s erroneous statement of the burden of proof.

App. 21
with this opinion”); Steadman v. State, 360 S.W.3d 499,
510 n.41 (Tex. Crim. App. 2012) (citing cases where
courts found structural error and remanded for new
trial).
Accordingly, we sustain Freeman’s sole appellate
issue.
CONCLUSION
We reverse the trial court’s judgment of conviction
and remand for further proceedings consistent with
this opinion.
_______________________________
Scott K. Field, Justice
Before Chief Justice Rose, Justices Field and Bourland
Reversed and Remanded on Motion for Rehearing
Filed: May 9, 2017
Publish

App. 22
TEXAS COURT OF APPEALS,
THIRD DISTRICT, AT AUSTIN
==========================
NO. 03-16-00130-CR
==========================
Matthew Freeman, Appellant
v.
The State of Texas, Appellee
========================================================
FROM THE DISTRICT COURT OF TOM GREEN
COUNTY, 391ST JUDICIAL DISTRICT
NO. D-15-0520-SA, THE HONORABLE
THOMAS J. GOSSETT, JUDGE PRESIDING
========================================================
OPINION
Appellant Matthew Freeman was charged by indictment with assault on a family member by impeding the normal breathing or circulation of the blood,
a third-degree felony. See Tex. Penal Code
§ 22.01(b)(2)(B). The indictment also alleged a prior
felony conviction, enhancing the offense to a seconddegree felony. See id. § 12.42(a). Freeman pleaded not
guilty to the charged offense but pleaded guilty to the
lesser-included offense of assault on a family member
with bodily injury and pleaded true to the enhancement paragraph. Following a bench trial, the trial
court signed a judgment convicting Freeman and sentencing him to 15 years’ imprisonment. In one appellate issue, Freeman contends that the trial court

App. 23
violated his constitutional rights by convicting and
sentencing him without finding him guilty beyond a
reasonable doubt. We agree, and we will reverse his
conviction and remand the case for further proceedings.
“The Due Process Clause of the Fourteenth
Amendment ‘protects the accused against conviction
except upon proof beyond a reasonable doubt of every
fact necessary to constitute the crime with which he is
charged.’ ” Miles v. State, 357 S.W.3d 629, 631 (Tex.
Crim. App. 2011) (quoting In re Winship, 397 U.S. 358,
364 (1970)); see Sullivan v. Louisiana, 508 U.S. 275, 278
(1993) (“This beyond-a-reasonable-doubt requirement,
which was adhered to by virtually all common-law jurisdictions, applies in state as well as federal proceedings.”); Tex. Penal Code § 2.01 (“All persons are
presumed to be innocent and no person may be convicted of an offense unless each element of the offense
is proved beyond a reasonable doubt.”). This requirement is “basic in our law and rightly one of the boasts
of a free society.” In re Winship, 397 U.S. at 362 (quoting Leland v. Oregon, 343 U.S. 790, 803 (1952) (Frankfurther [sic], J., dissenting)). “The reasonable-doubt
standard plays a vital role in the American scheme of
criminal procedure. . . . The standard provides concrete substance for the presumption of innocence—
that bedrock axiomatic and elementary principle
whose enforcement lies at the foundation of the administration of our criminal law.” Id. at 363 (internal quotation marks omitted). We will presume that a trial
court applied the reasonable-doubt standard unless

App. 24
the defendant rebuts that presumption. See In re D.E.
W. 654 S.W.2d 33, 36 (Tex. App.—Fort Worth 1983, writ
ref ’d n.r.e.) (“The trial court, sitting without a jury, is
presumed to have used the correct standard of proof
absent a showing to the contrary. The burden is on appellant to show that the proper standard was not applied.”); see also Ex parte Jackson, 911 S.W.2d 230, 234
(Tex. App.—Houston [14th Dist.] 1995, no writ) (same).
In this case, Freeman has rebutted the presumption that the trial court applied the correct standard.
Freeman points out that, at the conclusion of the guiltor-innocence phase of the bench trial, the trial court
stated:
The Court finds by the clearer greater weight
and degree of credible testimony that the Defendant is guilty of the offense of assault by
impeding the breath or circulation, as alleged
in Paragraph 1 of the indictment.
This statement indicates that the trial court did not
apply the correct standard. Instead of finding Freeman
guilty “beyond a reasonable doubt,” the trial court purported to find him guilty “by the clearer greater weight
and degree of credible testimony.” We cannot assume
in light of this express statement by the trial court that
it used a different standard in finding Freeman guilty
than the one that it articulated. Therefore, Freeman
has met his burden of showing that the trial court applied the incorrect standard.1
1

In its appellate brief, the State argues that a later statement of the trial court shows that the court actually applied the

App. 25
In its appellate brief, the State suggests that, even
if the trial court committed constitutional error by applying the incorrect standard, we should perform a
harm analysis pursuant to Rule 44.2(a). See Tex. R.
App. P. 44.2(a) (providing that court of appeals must
reverse judgment of conviction for constitutional error
“unless the court determines beyond a reasonable
doubt that the error did not contribute to the conviction or punishment”). However, if the trial court’s failure to find Freeman guilty beyond a reasonable doubt
was “structural error,” we must reverse his conviction
without performing a harm analysis. See Schmutz v.
State, 440 S.W.3d 29, 35 (Tex. Crim. App. 2014) (“A
‘structural’ error ‘affect[s] the framework within which
the trial proceeds, rather than simply an error in the
trial process itself,’ and is not amenable to a harm
analysis.”) (quoting Jordan v. State, 256 S.W.3d 286,
290 (Tex. Crim. App. 2008)); see also Arizona v. Fulminante, 499 U.S. 279, 309 (1991) (“These are structural defects in the constitution of the trial
mechanism, which defy analysis by ‘harmless-error’
correct reasonable-doubt standard. At the conclusion of the punishment phase of the bench trial, the court stated, “Matthew Freeman, the Court having found you guilty of the offense of 3rd
Degree Felony assault on a person with whom you had a dating
relationship, as alleged in the indictment, by impeding the breath
or circulation, the Court does also find beyond a reasonable doubt
that Paragraph 2 [the enhancement paragraph] is true.” We conclude that this later statement does not indicate that the court
found Freeman guilty beyond a reasonable doubt. Instead, it
merely indicates that, in addition to finding Freeman guilty, it
also found beyond a reasonable doubt that the enhancement paragraph was true.

App. 26
standards.”). “All structural errors must be founded on
a violation of a federal constitutional right, but not all
violations of federal constitutional rights amount to
structural errors.” Schmutz, 440 S.W.3d at 35.
The United States Supreme Court has held that
“a constitutionally deficient reasonable-doubt [jury] instruction” is structural error. Sullivan, 508 U.S. at 276.
The Court explained that “[d]enial of the right to a jury
verdict of guilt beyond a reasonable doubt” is an error
not subject to a harm analysis because it violates a
“basic protectio[n] whose precise effects are unmeasurable, but without which a criminal trial cannot reliably
serve its function.” Id. at 281 (internal quotation
marks omitted; brackets in original). We conclude that
a similar structural error occurs when a trial judge
fails to find a defendant guilty beyond a reasonable
doubt in a bench trial. Requiring a harmless-error
analysis under these circumstances would result in a
situation in which, as Justice Scalia wrote for the
Court in Sullivan, a “reviewing court can only engage
in pure speculation—its view of what a reasonable jury
would have done. And when it does that, the wrong entity judge[s] the defendant guilty.” Id. (internal quotation marks omitted; brackets in original).
By applying the incorrect standard, the trial court
denied Freeman his right to a conviction based on
proof beyond a reasonable doubt. Therefore, we must
reverse Freeman’s conviction without performing a
harm analysis and remand to the trial court. See id. at
282 (concluding that structural error had occurred, declining to perform harm analysis, and stating that “the

App. 27
case is remanded for proceedings not inconsistent with
this opinion”); Steadman v. State, 360 S.W.3d 499, 510
n.41 (Tex. Crim. App. 2012) (citing cases where courts
found structural error and remanded for new trial).
Accordingly, we sustain Freeman’s sole appellate
issue.
CONCLUSION
We reverse the trial court’s judgment of conviction
and remand for further proceedings consistent with
this opinion.
____________________________
Scott K. Field, Justice
Before Chief Justice Rose, Justices Field and Bourland
Reversed and Remanded
Filed: March 22, 2017
Publish

App. 28
FILE COPY
OFFICIAL NOTICE FROM COURT OF
CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
4/3/2019
COA No. 03-18-00050-CR
FREEMAN, MATTHEW Tr. Ct. No. D-15-0520-SA
PD-1370-18
On this day, the Appellee’s petition for discretionary
review has been refused.
Deana Williamson, Clerk
NATHAN HOWARD BUTLER
LAW OFFICE OF NATHAN BUTLER
180 STONEHAM ST.
SAN ANGELO, TX 76905
* DELIVERED VIA E-MAIL *

